TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Customer Account Data Engine 2 Database
                  Validation Is Progressing; However, Data
                   Coverage, Data Defect Reporting, and
                     Documentation Need Improvement



                                     September 29, 2014

                             Reference Number: 2014-20-063




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


CUSTOMER ACCOUNT DATA ENGINE 2                       percentage of the data fields are validated with
DATABASE VALIDATION IS                               automated data compare tools, there is no
PROGRESSING; HOWEVER, DATA                           documented plan to ensure that data fields
COVERAGE, DATA DEFECT                                validated using other means are validated
                                                     periodically. The data sampling methodology for
REPORTING, AND DOCUMENTATION
                                                     validating CADE 2 data is sound. The IRS
NEED IMPROVEMENT                                     developed a data sampling methodology to
                                                     enable maximum data validation coverage by

Highlights                                           using a statistical sample, but key activities were
                                                     not documented. After discussing the need to
                                                     document the data sampling methodology, the
Final Report issued on                               IRS began development of the documentation.
September 29, 2014                                   Several in-progress documents were provided
                                                     for our review.
Highlights of Reference Number: 2014-20-063
to the Internal Revenue Service Chief                The IRS developed a Data Quality Scorecard to
Technology Officer.                                  track progress in meeting data quality success
                                                     criteria. However, the processes needed to
IMPACT ON TAXPAYERS                                  effectively perform these activities were not
                                                     sufficiently documented. As a result, some of
There is significant effort underway to ensure       the metrics were initially incorrectly reported.
the accuracy of individual taxpayer account data
on the Customer Account Data Engine 2                WHAT TIGTA RECOMMENDED
(CADE 2) database. This effort is an important
part of its implementation because inaccurate        TIGTA recommended that the Chief Technology
data could delay this database from becoming         Officer ensure that: 1) data validation test
the authoritative source of data, thereby            results are maintained and available for data
increasing the cost of implementation.               fields not validated by automated data compare
                                                     tools; 2) data validation plans include
WHY TIGTA DID THE AUDIT                              periodically validating the data fields that are not
                                                     validated with automated data compare tools;
This review was part of our Fiscal Year 2014         3) all data sampling processes are completely
Annual Audit Plan and addresses the major            documented; 4) details needed for determining
management challenge of Modernization. The           the Data Quality Scorecard metrics are
overall audit objective was to evaluate IRS          completely documented; 5) all documentation
efforts to ensure that the data in the CADE 2        needed to verify the data in the Data Quality
database are accurate and complete.                  Scorecard is stored for future reference;
The IRS requested that TIGTA evaluate the new        6) automated data compare tools identify and
data validation testing methodology. TIGTA           report on data fields, not field identifier numbers;
performed this audit during the data validation      and 7) automated data compare tool reports
testing process and provided the IRS with            clearly identify counters and align with data
recommendations for continuous improvement.          validation metrics.

WHAT TIGTA FOUND                                     The IRS agreed with six of the report’s seven
                                                     recommendations. The IRS plans to maintain
Data validation efforts were efficiently performed   results for manual data validation activities,
due to adequate planning and resource                validate changes to the data fields that are not
coordination. For example, detailed data             validated with automated data compare tools,
validation plans ensured that test activities were   develop documentation on the procedures to
on track and a new process ensured that data         collect and maintain data used to support data
defects were effectively managed.                    validation metrics and the Scorecard
                                                     development process, and store Scorecard
The IRS identified the data fields to be verified
                                                     source documentation.
and how each would be validated. While a large
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 29, 2014


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Customer Account Data Engine 2 Database
                             Validation Is Progressing; However, Data Coverage, Data Defect
                             Reporting, and Documentation Need Improvement
                             (Audit # 201320030)

 This report presents the results of our review of the Customer Account Data Engine 2 data
 validation efforts. The overall objective of this review was to evaluate Internal Revenue Service
 (IRS) efforts to ensure that the data in the Customer Account Data Engine 2 (CADE 2) database
 are accurate and complete. This review is included in the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2014 Annual Audit Plan and addresses the major management
 challenge of Modernization.
 While we are in general agreement with the IRS’s response, one area of disagreement is whether
 CADE 2 Transition State 1.5 should be closed. We believe it should not be closed because, as of
 June 2014, only 68 percent of logic paths and 81 percent of field identifiers had been validated,
 and data defects were identified. There is a significant risk that additional defects will be
 identified as data validation continues. Therefore, we believe that CADE 2 Transition State 1.5
 should remain open until several consecutive data validation cycles are completed with no new
 data defects identified.
 Management’s complete response to the draft report is included in Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Danny R. Verneuille, Acting
 Assistant Inspector General for Audit (Security and Information Technology Services).
                              Customer Account Data Engine 2 Database Validation
                              Is Progressing; However, Data Coverage, Data Defect
                                Reporting, and Documentation Need Improvement



                                             Table of Contents
Background .......................................................................................................... Page 1
Results of Review ............................................................................................... Page 4
          Data Validation Efforts Were Performed Efficiently
          Due to Adequate Planning and Resource Coordination ............................... Page 4
          The CADE 2 Program Management Office Identified
          the Data Fields to Be Verified and How Each Would Be
          Validated; However, All Data Fields Are Not Being
          Periodically Validated ................................................................................... Page 5
                    Recommendations 1 and 2: .............................................. Page 8

          The Data Sampling Methodology for Validating
          CADE 2 Data Is Sound; However, Key Processes in
          the Implementation of the Methodology Need to Be
          Documented .................................................................................................. Page 9
                    Recommendation 3:........................................................ Page 14

          The Documentation and Processes for Determining the
          Data Quality Scorecard Metrics Need Improvement .................................... Page 14
                    Recommendations 4 and 5: .............................................. Page 20

          The Field Identifier Compare Tool Validates Data for
          Downstream Systems, but Data Discrepancy Reports
          Need Improvement........................................................................................ Page 20
                    Recommendation 6:........................................................ Page 22
                    Recommendation 7:........................................................ Page 23

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 24
          Appendix II – Major Contributors to This Report ........................................ Page 26
          Appendix III – Report Distribution List ....................................................... Page 27
          Appendix IV – Data Quality Scorecards ...................................................... Page 28
          Appendix V – Glossary of Terms ................................................................. Page 32
          Appendix VI – Management’s Response to the Draft Report ...................... Page 35
         Customer Account Data Engine 2 Database Validation
         Is Progressing; However, Data Coverage, Data Defect
           Reporting, and Documentation Need Improvement




                     Abbreviations

CADE 2        Customer Account Data Engine 2
EDMO          Enterprise Data Management Office
FLID          Field Identifier
IMF           Individual Master File
IRS           Internal Revenue Service
IT            Information Technology
KISAM         Knowledge, Incident/Problem, Service Asset Management
KPI           Key Performance Indicators
PMO           Program Management Office
TIGTA         Treasury Inspector General for Tax Administration
                            Customer Account Data Engine 2 Database Validation
                            Is Progressing; However, Data Coverage, Data Defect
                              Reporting, and Documentation Need Improvement




                                              Background

The Customer Account Data Engine1 2 (CADE 2) Program
is one of the top information technology modernization            In addition to standard testing
projects in the Internal Revenue Service (IRS). The               procedures, several tools and
CADE 2 mission is to provide state-of-the-art individual             methodologies have been
taxpayer account processing and data-centric technologies           identified and developed to
                                                                      validate the quality and
to improve service to taxpayers and enhance tax                        integrity of the data.
administration. The CADE 2 database will replace the
current Individual Master File (IMF) account settlement
system with a relational database processing system and become a key component in the IRS’s
enterprise-wide, data-centric information technology strategy. Implementation of the CADE 2
database (Database Implementation) to support this objective has introduced a greater potential
for data anomalies due to a complex infrastructure, the complexity of tax processing, and the
introduction of a new relational database. As such, there is a need for a comprehensive plan for
ensuring the quality and integrity of the data within the CADE 2 database and the data provided
to downstream systems. In addition to standard testing procedures, several tools and
methodologies have been identified and developed to validate the quality and integrity of the
data and to identify anomalies within the data.
In March 2013, in its definition of “authoritative source,” the IRS Chief Counsel stated that if the
data in CADE 2 are used as evidence of the transactions in the taxpayer’s account, the
information obtained from CADE 2 must be identical to the IMF at any given point in time.
On November 5, 2012, the CADE 2 Executive Steering Committee approved a conditional
CADE 2 Transition State 1 Milestone 5 exit with two conditions. On April 4, 2013, the CADE 2
Executive Steering Committee closed the November 2012 Milestone 5 exit conditions and
opened 2 new Exit conditions – one of which was for Data Assurance: 1) Data Assurance –
“Getting the Data Right” and 2) Robust and Sustainable System Performance and Operational
Readiness. These exit conditions are now being tracked by the IRS as Transition State 1.5. The
criteria for closing the Data Assurance conditions are:
          Verification of a statistically sound sample (911 data fields against 270 million taxpayer
           accounts) of data in the CADE 2 database with no Priority 1/Priority 2 data defect tickets.
          Ability to scale data assurance tools to perform high-volume testing in time to test within
           filing season test windows.



1
    See Appendix V for a glossary of terms.
                                                                                               Page 1
                        Customer Account Data Engine 2 Database Validation
                        Is Progressing; However, Data Coverage, Data Defect
                          Reporting, and Documentation Need Improvement



       Minimal (risk-based decision) code defects that could cause data defects downstream
        resulting in the need to use data correction tools.
The criteria for closing the Robust and Sustainable System Performance and Operational
Readiness conditions are:
       Address identified system performance concerns.
       Meet organizational and operational readiness objectives.
       Meet and exceed system performance targets for database processing within budgeted
        time frames in production.
Over the past two years, the Treasury Inspector General for Tax Administration (TIGTA)
reported on the progress of the CADE 2 Database Implementation. In September 2012, we
reported that the IRS had data integrity checks in place at several levels of the CADE 2 database.
Despite these controls and their data integrity testing efforts, the IRS could not ensure that the
data on the CADE 2 database were consistently accurate and complete at the data field level due
to the complexity of many of the data transformation rules and embedded business logic
contained within IMF data fields.2
In September 2013, TIGTA reported that the CADE 2 database could not be used as a trusted
source for downstream systems due to the 2.4 million data corrections that had to be applied to
the CADE 2 database and the IRS’s inability to evaluate 431 CADE 2 database columns of data
for data accuracy. During the audit, the IRS was in the process of developing additional tools
and implementing a new data validation testing methodology intended to achieve timeliness,
accuracy, integrity, validity, reasonableness, completeness, and uniqueness.
The IRS requested that TIGTA evaluate the new data validation testing methodology. TIGTA
agreed to do so3 and performed this audit during the data validation testing process and provided
the IRS with recommendations for continuous improvement. During fieldwork, the IRS took
immediate steps to address concerns identified by TIGTA. Most of these actions are noted in the
Management Action statements later in the report.
This review was performed at the IRS Information Technology (IT) organization’s offices in
Lanham, Maryland, during the period August 2013 through May 2014. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We

2
  TIGTA, Ref. No. 2012-20-109, The Customer Account Data Engine 2 Database Was Initialized; However,
Database and Security Risks Remain, and Initial Timeframes to Provide Data to Three Downstream Systems May
Not Be Met pp. 3–4 (Sept. 2012).
3
  TIGTA, Ref. No. 2013-20-125, Customer Account Data Engine 2 Database Deployment Is Experiencing Delays
and Increased Costs pp. 7–10 (Sept. 2013).
                                                                                                     Page 2
                      Customer Account Data Engine 2 Database Validation
                      Is Progressing; However, Data Coverage, Data Defect
                        Reporting, and Documentation Need Improvement



believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 3
                      Customer Account Data Engine 2 Database Validation
                      Is Progressing; However, Data Coverage, Data Defect
                        Reporting, and Documentation Need Improvement




                                 Results of Review

Data Validation Efforts Were Performed Efficiently Due to Adequate
Planning and Resource Coordination

Detailed data validation plans were used to help ensure that test activities remain
on track
The CADE 2 Database Implementation Data Validation Plan contains detailed information about
the people, processes, and tools that will be leveraged to execute data validation and identify data
anomalies in the Systems Acceptability Test environment and the Production Support
Environment. To supplement the CADE 2 Database Implementation Data Validation Plan, the
CADE 2 Program Management Office (PMO) also developed a Data Validation Execution Plan
to facilitate the periodic meetings held to discuss the status of the data validation activities. The
Data Validation Execution Plan included activities to be completed for each cycle of tests.
Examples of activities include selecting the data samples for validation, executing the automated
data compare tool, analyzing the data validation results reports, preparing problem tickets to
correct defects, and assigning the problem tickets to the proper organization for resolution.

Adequate planning and resource coordination were achieved despite the
Government shutdown and limited resources
The CADE 2 PMO adequately planned and coordinated the data validation testing schedule and
process. Planning was accomplished despite the Government shutdown, limited testing support,
and a limited testing environment during the November to December 2013 testing period.
Accommodations were made to shift testing efforts from the Final Integration Testing
environment to the Production Support Environment and to extend testing dates further into
Calendar Year 2014. All this required a great deal of coordination among the IT and business
unit organizations. Testing implementation procedures were also defined and coordinated
among all involved parties.
In addition, periodic checkpoint meetings were effectively used to identify, keep all partners
informed of, and resolve an issue with using the Field Identifier (FLID) Compare Tool (High
Volume) (hereafter referred to as the FLID Compare Tool) in the Production Support
Environment. The data validation activities for Final Integration Testing were completed on
schedule in January 2014, and the data validation activities in 2014 continue to meet the target
completion dates.



                                                                                              Page 4
                      Customer Account Data Engine 2 Database Validation
                      Is Progressing; However, Data Coverage, Data Defect
                        Reporting, and Documentation Need Improvement



Data defects were effectively managed through the Knowledge, Incident/Problem,
Service Asset Management (KISAM) system
Data defects identified through both automated and manual means were effectively managed
through the KISAM system. Testers generated KISAM tickets when they found data
discrepancies not previously identified. Triage teams then analyzed the tickets and assigned
them to the appropriate groups for resolution. IRS procedures require that testers verify
corrections before closing KISAM tickets. The CADE 2 PMO monitored the list of KISAM
tickets generated during data validation.

Most of the data correction tools were successfully developed and deployed to
enable database data defect corrections
The IRS developed three new tools to correct CADE 2 database data defects caused by loading
errors, the receipt of bad data from the IMF, or software/hardware failures during daily update
runs.
      The Update in Place tool executes direct updates to data on the CADE 2 database through
       the use of Structured Query Language update statements.
      The Account Deleter/Re-Extractor tool makes corrections by deleting erroneous data
       from the database, reextracting it from the IMF, and loading the corrected data into the
       database.
      The Taxpayer Identification Number Bypass Tool is used in conjunction with the
       Account Deleter/Re-Extractor tool. It allows daily update processing to proceed while
       temporarily bypassing updates for specific CADE 2 database accounts with known data
       problems until the problems can be corrected.
These tools were sufficiently tested through the combined efforts of the Enterprise Services
Enterprise Systems Testing and the Applications Development organizations (both a part of the
IT organization) and were successfully deployed into production in Calendar Year 2014. The
last data correction tool, the FLID Specific Update Tool, is scheduled for deployment on
June 27, 2014.

The CADE 2 Program Management Office Identified the Data Fields to
Be Verified and How Each Would Be Validated; However, All Data
Fields Are Not Being Periodically Validated
The Government Accountability Office’s Standards for Internal Control in the Federal
Government state that control activities include verifications and accurate and timely recording




                                                                                           Page 5
                        Customer Account Data Engine 2 Database Validation
                        Is Progressing; However, Data Coverage, Data Defect
                          Reporting, and Documentation Need Improvement



    of transactions and events.4 Transactions should be promptly recorded to maintain their
    relevance and value to management in controlling operations and making decisions.
    According to information technology industry standards, data quality assurance can be achieved
    only when the following criteria are met:
         Accuracy: Data must be correct and consistent.
         Completeness: All related data must be linked from all possible sources.
         Availability: Data must be available upon demand.
         Timeliness: Current data must be available.
Data quality for the CADE 2 database is dependent on the database matching corresponding IMF
data. The CADE 2 Database Implementation Data Validation Plan for 2013/2014 documents the
activities that need to be performed in order to validate the CADE 2 database. This encompasses
validation of all CADE 2 data fields that are derived from the IMF. In addition, data quality
ensures that the CADE 2 data records match the corresponding data records from the IMF. This
encompasses validation of all data fields that are fed downstream from the IMF currently and
that will be fed to downstream systems by the CADE 2 database.
For the 2014 database format, the CADE 2 PMO prepared a data coverage matrix that identified
1,018 verifiable IMF data fields that would be validated. Figure 1 provides the distribution of
the validation methods.




4
 Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Internal Control: Standards for Internal Control in the Federal Government (Nov. 1999).
                                                                                                   Page 6
                      Customer Account Data Engine 2 Database Validation
                      Is Progressing; However, Data Coverage, Data Defect
                        Reporting, and Documentation Need Improvement



                 Figure 1: Data Fields Grouped by Validation Methods

                                        2014 Data Field Count

                Number of Fields to Be Validated                                1,018
                  Fields Validated by FLIDs                                     (911)
                  Fields Validated by Other Methods                                 107


                Other Validation Method Details
                  No Need to Validate                                                3
                  Database Integrity Check                             20
                  Systems Acceptability Testing Cases                  41
                  General Transcript Report Test                        2
                  Manual Compare                                       41
                  Total Fields Validated by Other Methods                           104
                                                            Total                   107
               Source: CADE 2 Database Data Field Coverage v2.4.2 11222013_Final.
               Figures in parentheses are negative (subtractions).

The FLID Compare Tool will validate 911 data fields that will be fed to downstream systems.
The Data Quality Scorecard metrics used to monitor and report the status of data validation
efforts will focus on only the data fields fed to downstream systems. Therefore, there will be no
status reporting on the remaining 107 data fields.
We requested test documentation for each category to review the validation of the 104 data fields
needing validation (three fields required no validation; see Figure 1). While the test
documentation was not readily available, by May 9, 2014, we received sufficient testing
documentation for 100 of the 104 data fields supporting that the data fields were initially
validated.
In addition, the CADE 2 PMO determined how often the data fields derived from the IMF will
be validated during production. The data validation execution schedule dated May 8, 2014,
details data validation activities planned for production cycles 5 through 22. The data validation
activities are concentrated on the data fields that will be fed to downstream systems. While we
obtained test documentation supporting the initial validation of 100 of 104 data fields currently
not fed to downstream systems, all 107 data fields not validated by the FLID Compare Tool are
derived from the IMF; therefore, they should be periodically validated if the CADE 2 database is
to become the authoritative source of data.


                                                                                           Page 7
                      Customer Account Data Engine 2 Database Validation
                      Is Progressing; However, Data Coverage, Data Defect
                        Reporting, and Documentation Need Improvement



Without periodically validating all data derived from the IMF and maintaining adequate
documentation of the validation results, management will not have full assurance that the data
are complete and accurate.
On April 29, 2014, the CADE 2 Executive Steering Committee approved a proposal to close the
Transition State 1.5 Data Assurance exit condition by June 27, 2014, after testing transmission of
data to selected downstream systems. However, a Data Quality Scorecard reported that as of
June 27, 2014, there were five open Priority 2 data defect tickets. Three of the five were from
the data validation activities that were recently completed on June 27, 2014. Therefore, the exit
condition that requires verification of a statistically sound sample (911 data fields against
270 million taxpayer accounts) of data in the CADE 2 database with no Priority 1 or 2 data
defect tickets was not successfully met. We believe that Transition State 1.5 should not be
closed until several consecutive cycles of data validation results show that no Priority 1 or 2 data
defect tickets remain open. The IRS indicated that data validation is a dynamic process and
when reviewing problem tickets the nature of the ticket needs to be considered. In this case, the
open tickets were of low impact and minimal risk.
The IRS closed the Data Assurance exit condition on June 17, 2014. With this closure, IRS
management indicated acceptance of the risk of data defects occurring as data validation
proceeds through the remainder of the processing year.

Recommendations
The Chief Technology Officer should:
Recommendation 1: For data fields not validated through automated data compare tools,
ensure that data validation test results are maintained and available.
     Management’s Response: The IRS agreed with this recommendation and asserts that
     processes are in place. These test results are an integral part of maintaining transparency
     with CADE 2 stakeholders and delivery partners. The business organization data
     validation results and testing results are maintained based on the organization’s official
     procedures. The IRS affirms that it will continue to maintain results for manual data
     validation activities in accordance with standard procedures, on an ongoing basis.
Recommendation 2: Ensure that data validation plans include periodically validating the data
fields that are not validated with automated data compare tools.
     Management’s Response: The IRS agreed with this recommendation. Any changes
     to the data fields that are not validated with automated data compare tools, such as annual
     filing season updates, will be validated through standard testing procedures. The IRS has
     updated the data validation plan to reflect the frequency and process of manually validating
     data fields not fed to downstream systems.


                                                                                             Page 8
                     Customer Account Data Engine 2 Database Validation
                     Is Progressing; However, Data Coverage, Data Defect
                       Reporting, and Documentation Need Improvement



The Data Sampling Methodology for Validating CADE 2 Data Is Sound;
However, Key Processes in the Implementation of the Methodology
Need to Be Documented
The Government Accountability Office’s Standards for Internal Control in the Federal
Government state that control activities include verifications and accurate and timely recording
of transactions and events. Transactions should be promptly recorded to maintain their relevance
and value to management in controlling operations and making decisions. According to industry
standards, data quality assurance can be achieved only when the following criteria are met:
1) accuracy; 2) completeness; 3) availability; and 4) timeliness.
The CADE 2 PMO developed a data sampling methodology to identify datasets (random and
Smart samples) to cover all transformation logic paths and define appropriate Taxpayer
Identification Numbers and modules for each validation method. Implementation of this
methodology is ongoing and being refined.
The data sampling methodology was used throughout Systems Acceptability Testing and Final
Integration Testing of the 2013 and 2014 version of the data and continues to be used for
production validation in order to maximize coverage of data transformation logic between the
IMF and the CADE 2 database. Figure 2 illustrates the data flow and transformation process
between the IMF and the CADE 2 database and from the CADE 2 database to downstream
systems. The methodology identifies the probability of certain transformation logic paths
occurring and pinpoints specific Taxpayer Identification Numbers that can be used for data
validation that meet specific business conditions.




                                                                                         Page 9
                         Customer Account Data Engine 2 Database Validation
                         Is Progressing; However, Data Coverage, Data Defect
                           Reporting, and Documentation Need Improvement



                 Figure 2: The CADE 2 Database Corporate Files Online/
                   IMF Online/Data Access Service Interface Data Flow




Source: TIGTA, Ref. No. 2013-20-125, Customer Account Data Engine 2 Database Deployment Is Experiencing
Delays and Increased Costs p. 8 (Sept. 2013), and a presentation for the CADE 2 Executive Steering Committee
Meeting held on April 29, 2014, slide 16. VSAM – Virtual Storage Access Method. CFOL – Corporate Files
Online. IMFOL – Individual Master File Online.

The data sampling process to maximize coverage of transformation logic during data validation
execution consists of the following activities:
        Database Profiling identifies all of the data fields and transformation logic paths that
         can be tested as well as the probability of each transformation occurring in the data for
         that processing cycle – Because some business transactions occur infrequently or are
         unique, production data may not be available to validate those transformation rules until
         later in the processing year. Figure 3 outlines the high-level approach to the
         data sampling methodology, which will provide test cases as inputs to the
         Automated Compare Data Validation tool. Transformation logic paths that have a
         20 percent or greater probability of occurring in the data will be included in a random
         sample; those with less than 20 percent probability will be included in a Smart sample.




                                                                                                      Page 10
                         Customer Account Data Engine 2 Database Validation
                         Is Progressing; However, Data Coverage, Data Defect
                           Reporting, and Documentation Need Improvement



               Figure 3: Data Sampling Methodology – High-Level Approach




Source: CADE 2 Database Implementation Data Validation Plan, Version 2.0, p. 34, dated February 3, 2014.
TIN – Taxpayer Identification Number. EST – Enterprise Systems Testing. SAT – Systems Acceptability Testing.
FIT – Final Integration Testing. IMFOL – Individual Master File Online.

        Figure 4 provides the data sampling methodology that applies a statistical approach to
        determine the validation confidence. It determines the probability of each transformation
        logic path occurring through Database Profiling. For example, a business event with at
        least a 20 percent probability of occurring must occur 25 times to achieve a confidence
        level of 99.6222 percent.




                                                                                                      Page 11
                         Customer Account Data Engine 2 Database Validation
                         Is Progressing; However, Data Coverage, Data Defect
                           Reporting, and Documentation Need Improvement



               Figure 4: Data Sampling Methodology – Statistical Approach




Source: Data Integrity Validation Smart Sampling Deep Dive Draft, dated April 18, 2013.

        Taxpayer Identification Numbers/Module Generation includes identifying specific data
         (Taxpayer Accounts or Tax and Entity Modules) that can be tested by the data
         validation tools, which cover specific business conditions (that are unlikely to occur in a
         random sample of data) – We met several times with the Smart Sampling subject matter
         expert to discuss how this activity and the data profiling activities were performed. We
         were provided a spreadsheet that contained information such as transaction codes and
         the profiling analysis used for identifying the data and business conditions that can be
         tested. However, neither the identification process nor an explanation of the spreadsheet
         data was documented. Thus, we were unable to evaluate the process. The CADE 2
         PMO stated it had not yet documented the processes because executing data quality
         activities (e.g., preparing random and Smart samples in time for data validation) had
         priority over the documentation.
       Data Validation Execution includes testing the sampled Taxpayer Identification
        Numbers/Modules using the identified data validation methods – The Data Validation
        Execution Plans and FLID Compare reports show that random and Smart samples were
        used in the data validation tests. Validation of completeness is reported on the Data
        Quality Scorecard under the Data Coverage Section. This section was first populated for


                                                                                            Page 12
                      Customer Account Data Engine 2 Database Validation
                      Is Progressing; However, Data Coverage, Data Defect
                        Reporting, and Documentation Need Improvement



       Production cycles 5 and 6, which reported on only the percentage of transformation logic
       paths covered. The methodology for validating completeness had not been documented.
       On March 11, 2014, a Fast Smart sampling process was tested in cycle 5. It reuses the
       regular Smart sampling process but can be applied to production on a weekly basis, while
       the regular Smart sampling process requires at least four weeks. The results indicate that
       the Fast Smart sampling method added five times more coverage than the regular random
       sampling method and helped to identify new defects. As a result, it was officially
       implemented for cycles 9 and 10, in addition to using random sampling. We received
       two results spreadsheets that summarized the results used to conclude that Fast Smart
       sampling provided more coverage with fewer cases. We received seven of the eight
       source documents to support the summary spreadsheets; therefore, we were unable to
       completely confirm the numbers.
      Reporting and Analysis – The following activities are associated with this step:
       a. Analyzes the transformation and data field coverage provided by data sampling and
          reports out results. Transformation Logic Paths coverage and data field coverage
          were included on the Data Quality Scorecard beginning with cycles 5/6 and 9/10,
          respectively.
       b. Validates the completeness of data profiling activities. We have not seen any
          documentation on the status of this activity.
Our statistician determined that the concept and process of using the data sampling methodology
to ensure that infrequently used data fields will be included in data validation testing and to
provide a statistical basis for deciding how many instances of a particular data field or business
event are to be sampled, based on the probability of occurrence and target confidence level, is
sound. While the process used to implement the data sampling methodology was verbally
described by IRS personnel in meetings, these processes had not been documented and were not
available for review.
In addition, the process for measuring the effectiveness and success of the data sampling
methodology in providing the expected coverage had not been documented. For example, the
process for determining the percentage of transformation logic paths covered was not
documented. This information is needed to ensure that the percentage of transformation logic
paths, FLIDs, and data fields covered are accurately identified for the Data Quality Scorecard.
Due to the significant time pressure and limited resources faced by the CADE 2 PMO to ensure
that the CADE 2 data validation activities stay on course, conducting the data sampling activities
had priority over fully documenting the processes for profiling the data and evaluating the
effectiveness of the data sampling methodology. In addition, the CADE 2 PMO explained that
although the methodology has been implemented, they are still in the process of refining it.


                                                                                          Page 13
                     Customer Account Data Engine 2 Database Validation
                     Is Progressing; However, Data Coverage, Data Defect
                       Reporting, and Documentation Need Improvement



Until data validation processes are formally documented, IRS management cannot have full
confidence that the correct data validation procedures are performed consistently. This may also
reduce the assurance that CADE 2 data are effectively and completely tested. These processes
should be documented as soon as possible to avoid the risk of losing the knowledge that only the
subject matter experts have and to provide a reference for current and future use.
Management Action: After discussing the need to document the data sampling methodology
with CADE 2 PMO management, they recognized the urgency of the need and began
development of the documentation. Several in-progress documents were provided for our
review, including the Defect Verification Process used by Smart Sampling and the CADE 2 Data
Validation Smart Sample Process Overview documents.

Recommendation
Recommendation 3: The Chief Technology Officer should ensure that all data sampling
methodology processes such as data profiling and calculating data field and transformation logic
coverage are completely documented and that the documents are readily available for review.
Where applicable, the documentation should include procedures to collect and maintain source
data used to support data validation metrics.
     Management’s Response: The IRS agreed with this recommendation. The IRS is
     developing documentation on the procedures to collect and maintain source data used to
     support data validation metrics.

The Documentation and Processes for Determining the Data Quality
Scorecard Metrics Need Improvement
The Government Accountability Office’s Standards for Internal Control in the Federal
Government state that control activities include verifications and accurate and timely recording
of transactions and events. Transactions should be promptly recorded to maintain their relevance
and value to management in controlling operations and making decisions.
According to the Data Quality Team Charter v 0.3 dated July 26, 2013, the team’s mission is to
ensure the quality and integrity of the data within the CADE 2 database and the data fed to
downstream systems by providing execution support for defect management activities and
establishing a comprehensive Data Quality Scorecard to measure the progress towards data
quality goals.
The Data Quality Team developed a Data Quality Scorecard that includes six key performance
areas with success criteria: 1) Data Coverage; 2) Sample Size; 3) Data Validation Defect
Summary; 4) Referential Integrity Checks; 5) Balance and Control Mechanisms Plus Aggregate
Metrics; and 6) Data Correction Tool Status. Figure 5 provides the defined key performance


                                                                                         Page 14
                        Customer Account Data Engine 2 Database Validation
                        Is Progressing; However, Data Coverage, Data Defect
                          Reporting, and Documentation Need Improvement



indicators (KPI) and success criteria for each area. The KPIs that are grayed were not included
in the initial Data Quality Scorecard because the information was not available.
                Figure 5: Key Performance Indicators and Success Criteria




Source: CADE 2 Data Quality Scorecard for the 2014 Version of the Data as of December 16, 2013. TBD – To Be
Determined. P1, P2 – Priority 1 or 2.

The first published Data Quality Scorecard, dated December 16, 2013, reported on
pre-production data and was distributed to stakeholders on December 20, 2013. The Scorecard is
presented in Appendix IV, Figure 1. The IRS initially planned to prepare a Scorecard every
two weeks for distribution to stakeholders. On March 21, 2014, we received information that a
Scorecard will be produced for each data validation cycle.
We attempted to fully assess the accuracy of the entire Data Quality Scorecard for a specific
cycle. However, due to the lack of supporting source documentation we were unable to
complete the assessment. Alternatively, we validated the individual sections of the Scorecard
when sufficient source information was made available.
The results of our review follow:
Section 1 – Data Coverage: This section includes the Transactions/Business Events, the Logic
Paths, and the Data Fields and FLIDs covered. The IRS relies on summary spreadsheets to
                                                                                                   Page 15
                      Customer Account Data Engine 2 Database Validation
                      Is Progressing; However, Data Coverage, Data Defect
                        Reporting, and Documentation Need Improvement



report the data validation results for the first three KPIs. The Data Quality Scorecard for cycles
9/10 as of April 14, 2014, reported metrics for Logic Paths, Business Events, Data Fields, and
FLIDs. We received summary spreadsheets for the first three metrics. We also received source
documentation supporting the summary spreadsheet for the Logic Paths KPI but not for the
Business Events and the Data Fields KPIs. Although the Scorecard reported 80 – 90 percent
coverage of the FLIDs, we did not receive any documentation to support that metric. Figure 6
displays the Data Coverage portion of the Data Quality Scorecards.
                                        Figure 6: Data Coverage




 Source: Excerpts of the Data Quality Scorecards provided by the CADE 2 PMO. Pre-PROD – Pre-production.
 i5 – Iteration 5.

    Section 2 – Sample Size: This section includes the targeted number of Taxpayer
    Identification Numbers and/or modules expected to be compared and the actual number of
    Taxpayer Identification Numbers and/or modules compared for data validations performed
    prior to production cycles 5/6. Beginning with production cycles 5/6, the objective was to
    compare and report on modules. The source for the number of actual modules compared
    during production should have been documented in an FLID report. Until the end of
    April 2014, the number of actual modules compared was incorrectly reported because the
    IRS did not base the numbers on the FLID report. Instead, they used the targeted volumes

                                                                                                Page 16
                      Customer Account Data Engine 2 Database Validation
                      Is Progressing; However, Data Coverage, Data Defect
                        Reporting, and Documentation Need Improvement



    for the random and Smart samples as the basis for reporting the actual modules compared.
    The IRS was not referring to the FLID reports for the actual number of modules compared
    because the FLID reports did not clearly indicate the actual number of modules compared.
    In addition, the process for determining the actual number was not documented. Also, the
    Wage and Investment Division Business Modernization Office (hereafter referred to as
    Business Modernization Office) stated that they were in the process of learning how to read
    the FLID reports and verify the contents. As a result, the incorrect numbers were included
    in presentations submitted to CADE 2 executives and the Chief Technology Officer for their
    discussions.
    Figure 7 shows the incorrect and correct number of modules actually compared. The
    Business Modernization Office personnel stated that after learning more about the data
    captured in the FLID report (how to read them and verify the contents), they updated the
    Scorecards from cycles 5/6 through the present accordingly to accurately reflect the actual
    number of modules compared. Prior to that, the numbers were based on the targeted
    volumes for the random and Smart samples. It appears that the IRS learned of the need to
    make the corrections after our repeated requests for documented source information.
                      Figure 7 – The Incorrect and Correct Number
                      of Actual Modules Compared As Reported on
                     Various Iterations of the Data Quality Scorecard

                                         Actual Modules Compared
            Cycles          Incorrect Number                    Correct Number
              5/6            500,000/500,000                     590,229/588,630
                             577,794 / 576,618
              7/8             591,302/589,264                    591,652/590,308
             9/10             623,372/500,000                    500,042/611,374
          Source: Data Quality Scorecards provided by the CADE 2 PMO.

Section 3 – Data Validation Defect Summary: This section reports the number of new data
defect tickets open and, of those, the number that remain open for that cycle as of the Scorecard
date. It does not report the cumulative number of open unresolved tickets from other cycles as of
that date. For example, the Data Quality Scorecard for cycles 15/16 as of May 12, 2014,
reported that all of the new tickets opened during that time were closed because they were later
determined not to be data issues. Because the Scorecard showed no open tickets, it might appear
that all of the data are correct. However, this is not the case because the Scorecard does not
carry over the unresolved data defect tickets from prior cycles that remain in open status. For
this reporting period, another management report shows seven open data defect tickets. All were
estimated to be resolved and closed by May 28, 2014. IRS management indicated that initial

                                                                                         Page 17
                     Customer Account Data Engine 2 Database Validation
                     Is Progressing; However, Data Coverage, Data Defect
                       Reporting, and Documentation Need Improvement



Scorecards did not report cumulative open unresolved data defect tickets because each Scorecard
covered only a two week period. As of May 19, 2014, the IRS began producing an Aggregate
Scorecard that includes all open data defect tickets.
Also, as of April 3, 2014, there are 10 open known data defects on the Known Defect List.
These are data defects that have occurred on more than one occasion and need to be corrected.
These, along with the new data defects that are identified during the data validation process,
must be corrected before the CADE 2 database can replace the current IMF account settlement
system with a relational database processing system and become a key component in the IRS’s
enterprise-wide, data-centric information technology strategy.
Although the information is available, the Data Quality Scorecard does not show the impact of
the data defects. For example, the Scorecard does not show the number of tax and/or entity
modules or taxpayers affected. When resources are limited, knowing the impact of the data
defects could help prioritize the order in which data defects are resolved.
We also found a discrepancy between the Data Quality Scorecard for cycles 15/16 dated
May 12, 2014, and the CADE 2 Data Implementation Health Report dated May 19, 2014
(hereafter referred to as the Health Report). The Scorecard, which was also embedded in the
Health Report, reported “Eight new data defect tickets were initially opened for cycle 15/16
production Data Validation, but after further analysis, these tickets were determined to not be
data issues and were closed.” The Health Report reported that eight data defect tickets opened as
a result of cycles 15 and 16 data validation; however, seven of them were deemed to be “no
trouble found.” The remaining ticket was scheduled to be closed upon the delivery of FLID
Compare Tool Iteration 6 in early June 2014.
The Data Quality Scorecard for Production Cycles 5/6 dated March 12, 2014, correctly reported
that 12 new data defects were open and one of the 12 was subsequently closed. However, we
found two discrepancies in this section. The first is in the bar graph, which shows eight open
tickets for cycle 5 and three for cycle 6. The spreadsheet with the source information shows
seven open tickets for cycle 5 and four for cycle 6.
The second discrepancy is with the percentages in the pie chart. The chart shows that 41 percent
and 17 percent of the Defect Origin/Source were from Solutions Engineering–Data Engineering
and Identify and Extract Account Changes, respectively. However, based on the source
spreadsheet, Solutions Engineering–Data Engineering had six (50 percent) of the 12 and Identify
and Extract Account Changes had one (8 percent) of the 12.
Section 4 – Referential Integrity Checks: Referential Integrity Checks are run against the
database to ensure that tax account information that is spread over many tables can be
reassembled into a coherent tax account (i.e., prevent orphan data in the database). Identified
issues should be resolved according to standard operating procedures. As of April 24, 2014, all
Data Quality Scorecards reported that all checks for the cycles passed. We obtained and
reviewed 14 source reports for cycles 201250 through 201310 but none corresponded to the Data

                                                                                         Page 18
                      Customer Account Data Engine 2 Database Validation
                      Is Progressing; However, Data Coverage, Data Defect
                        Reporting, and Documentation Need Improvement



Quality Scorecards we received. Therefore, we were unable to confirm that all Referential
Integrity checks passed.
Section 5 – Balance and Control Mechanisms + Aggregated Metrics: This section reports
results from two sources:
      Simplified Financial Balance Reports: These are financial integrity checks to ensure that
       amounts from the IMF equal the CADE 2 database amounts. Chief Financial Officer
       requirements include balancing the sum of certain financial fields. Specialized financial
       reports are generated and provided to the Chief Financial Officer for manual comparison
       and verification. For the Data Quality Scorecard for Cycles 5/6 as of March 12, 2014, we
       received and compared the nine IMF reports to the nine CADE 2 database reports and
       found that all nine balanced to the penny.
      CADE 2/IMF Analytical Report Business Objects Enterprise Comparisons: This activity
       validates that CADE 2 data match IMF data by comparing data from certain IMF and
       CADE 2 database reports. As planned, these metrics were first reported on the Data
       Quality Scorecard for cycles 9/10. The April 14, 2014, version shows that the data fields
       in nine of the 10 reports matched. The remaining report has an 87 percent match rate, but
       the CADE 2 PMO is expecting results from another test report. We received a summary
       report that supported all the data in the Business Objects Enterprise Report Execution
       Analysis section except for the data in the CADE Fields Used column. However, we did
       not receive documents supporting the statistics in the summary report.
Section 6 – Data Correction Tools: We received documentation which confirms that six of the
seven tools were implemented into production. Therefore, this section correctly reported the
status of the tools.
Because the IT organization and the Business Modernization Office worked together to develop
the Scorecard and the KPIs, the Scorecard should meet the stakeholders’ needs. In addition, the
processes used to ascertain the actual statistical data need to be documented to ensure that they
are correctly and accurately determined. This will help stakeholders fully understand what the
statistics represent if they request an explanation for the basis of the statistics. When processes
are not sufficiently documented, there is a risk that they are not correctly performed. For
example, because the FLID report does not clearly state the total number of actual modules
compared and there were no documented instructions for identifying this, the number of actual
modules compared were incorrectly determined and incorrectly reported on the Scorecards
through April 2014 and incorrectly reported in presentations to management.
Management Action: After meeting with the CADE 2 PMO regarding the lack of sufficient
supporting documentation needed to validate the metrics on the Data Quality Scorecard, it began
collecting and providing us with the documentation. For example and as stated above, we
received source documentation that confirmed the logic path KPI metric.


                                                                                            Page 19
                      Customer Account Data Engine 2 Database Validation
                      Is Progressing; However, Data Coverage, Data Defect
                        Reporting, and Documentation Need Improvement



Recommendations
The Chief Technology Officer should:
Recommendation 4: Ensure that all processes for determining the metrics needed to populate
the Data Quality Scorecard are completely documented and that the documents are readily
available for review.
     Management’s Response: The IRS agreed with this recommendation. The IRS has
     developed and will be publishing documentation of the Scorecard development process.
     The IRS will continue to update, maintain, and develop documentation around the Data
     Quality Scorecard to ensure that its inputs and processes are transparent to CADE 2
     stakeholders.
Recommendation 5: Ensure that all documentation needed to verify the data in the Data
Quality Scorecard is stored for future reference and to provide the information needed for
oversight activities, such as spot checks to confirm the accuracy of the Scorecard.
     Management’s Response: The IRS agreed with this recommendation. The IRS has
     documented procedures for developing the Scorecard, a checklist to verify the contents,
     and has begun storing all Scorecard sources in a SharePoint repository. The IRS will
     ensure that the repository remains organized and easily accessible.

The Field Identifier Compare Tool Validates Data for Downstream
Systems, but Data Discrepancy Reports Need Improvement
The IRS data strategy requires that data fields be uniquely and consistently identified across
systems. The validation of data on the CADE 2 database is critical to the database becoming a
trusted source of data for downstream systems and ultimately the file of record for IMF data.
The FLID Compare Tool was developed as an automated way to compare high volumes of IMF
data to CADE 2 data during the data validation process. It was the main tool used for automated
data validation during the 2014 Filing Season. The tool leverages the existing IRS process of
using field identifiers (i.e., FLIDs) to help identify IMF data. Currently, Corporate Files Online
processing builds FLIDs for IMF data from the IMF Virtual Storage Access Method files. The
new CADE 2 Data Access Service builds these same FLIDs for data from the CADE 2 database.
The FLID Compare Tool compares FLIDs from both sources and identifies any discrepancies in
their data values.
Current IMF processing sends IMF data to downstream systems in files using FLIDs. By
comparing FLIDs built from IMF Virtual Storage Access Method files to FLIDs built from the
CADE 2 database, the FLID Compare Tool can cover all the data consumed by downstream
systems. Therefore, 911 (89 percent) of the 1,018 verifiable data fields on the CADE 2 database
can be identified through the use of FLIDs; the remaining 107 (11 percent) of the data populated
                                                                                          Page 20
                          Customer Account Data Engine 2 Database Validation
                          Is Progressing; However, Data Coverage, Data Defect
                            Reporting, and Documentation Need Improvement



into the CADE 2 database from the IMF are not related to an FLID number. Other validation
methods are used to ensure coverage of the data fields not covered by the FLID Compare Tool.
(This information is summarized in Figure 1 of this report.)
The FLID Compare Tool produces several reports on the results of its comparisons. One of
them, the Discrepancy Detail Report, lists all data discrepancies by FLID number, FLID name,
IMF data field name, and CADE 2 database table and column. The Business Modernization
Office used this report to review and analyze details on data discrepancies found during the data
validation process.
The FLID Coverage Count Report, added for the 2014 Filing Season, provides metrics on FLID
coverage during execution of the FLID Compare Tool. It provides a complete list of all unique
FLID numbers, whether or not the FLID was compared, and the match/no-match count for each
compared FLID.
The Enterprise Data Management Office (EDMO) maintains the list of FLIDs. We compared
the EDMO FLID list to the one in the FLID Coverage Count Report and found discrepancies.
         10 FLID numbers on the EDMO list were missing from the FLID Coverage Count
          Report.
         23 FLID numbers on the FLID Coverage Count Report did not have FLID names.
         36 FLID numbers in the FLID Coverage Count Report were listed as “reserved,”
          compared to 37 in the EDMO list.
These discrepancies raise questions as to whether the FLID Compare Tool is accurately
comparing all data at the FLID level.
After we alerted the IRS to the 10 missing FLID numbers, the IRS researched the issue and
found that the missing FLIDs should have been included in the FLID Coverage Count Report
and compared by the FLID Compare Tool. The IRS plans to add the missing FLIDs to the next
iteration of the FLID Compare Tool scheduled for implementation in the summer of 2014. In the
interim, the IRS is using another automated tool to review the 10 missing FLIDs.
While FLID numbers are currently used by the IMF to pass data to downstream systems,
FLID numbers do not uniquely identify data on the IMF. They are used in conjunction with their
position on the IMF data record to provide uniqueness. There are 805 FLID numbers5 and
911 FLID data fields on the CADE 2 database. This indicates that some FLID numbers are used
more than once for data field coverage. For example, the last name in the IMF data field
Taxpayer Nameline is represented by FLID 0733. However, FLID 0733 is mapped to
three separate data fields on the CADE 2 database. Specifically:


5
    FLID number sequence count (842) minus reserved FLID numbers (37) = 805 FLID numbers used in 2014.
                                                                                                    Page 21
                       Customer Account Data Engine 2 Database Validation
                       Is Progressing; However, Data Coverage, Data Defect
                         Reporting, and Documentation Need Improvement



       Taxpayer_Nameline.Joint_Last_Nm.
       Taxpayer_Nameline.Primary_Last_Nm.
       Taxpayer_Nameline.Secondary_Last_Nm.
The FLID Coverage Count Report counts by unique FLID number only; it does not trace back to
unique data fields on the database. Without this traceability, it is impossible to verify that all
database fields are validated by the FLID Compare Tool without additional analysis. After we
raised this issue to the IRS, the IRS responded that it will explore ways to address the
one-to-many relationship of FLIDs to data fields in future iterations of the FLID Compare Tool.
The FLID Compare Tool is used to gather metrics for data validation reporting. The Extended
Discrepancy Counts Report is used to provide sample size counts for the Data Quality Scorecard;
however, the report takes counts by program name, and documentation does not indicate how
these program names translate to sample size counts. Therefore, data in this report may be
misinterpreted and lead to incorrect information reported to management. In addition, if the
FLID list used in the FLID Compare Tool does not match the FLID list maintained by the
EDMO, the IRS cannot be assured that it is accurately and completely validating all FLIDs that
are intended to be fed to downstream systems. Finally, if the FLID Compare Tool cannot trace
back to the 911 data fields on the CADE 2 database that it is tasked with validating, the IRS
cannot guarantee the accuracy or the completeness of those fields.

Recommendations
The Chief Technology Officer should:
Recommendation 6: Ensure that automated data compare tools identify and report on data
fields, not FLID numbers, to align CADE 2 data validation efforts with the IRS’s data strategy
goal of uniquely identifying data fields across systems.
       Management’s Response: The IRS disagreed with this recommendation. Data defects
       are identified at the FLID level; the output from the FLID Compare Tool provides counts
       by FLID number. Traceability to unique data fields is established through the use of
       transformation rules analyzed during the defect triage process. This provides the
       acceptable level of traceability to unique data fields. The IRS’s data strategy goal for
       uniquely identifying data fields across systems is considered a guiding principal; however,
       programs are given discretion for when identifying at the data field level is necessary.
       Office of Audit Comment: TIGTA maintains its position that CADE 2 data validation
       efforts should identify and report on individual data fields. The IRS Data Strategy and
       Roadmap (dated August 27, 2012) stresses that information should be consistently
       represented across systems, available at the same level of granularity, and have summary
       levels so that meaningful comparisons can be made. The Data Strategy does not mention

                                                                                          Page 22
                     Customer Account Data Engine 2 Database Validation
                     Is Progressing; However, Data Coverage, Data Defect
                       Reporting, and Documentation Need Improvement



     that discretion is given to programs to determine when this principle would or would not
     apply.
Recommendation 7: Ensure that automated data compare tool reports clearly identify
counters and align with data validation metrics.
     Management’s Response: The IRS agreed with this recommendation. The High
     Volume FLID Compare Tool Design Document will be updated to explain the source of
     the numbers that are populated for those program names in Report 4, which will provide
     the actual input record count. This will allow for accurate reporting of actual sample size
     on the Scorecard.




                                                                                          Page 23
                            Customer Account Data Engine 2 Database Validation
                            Is Progressing; However, Data Coverage, Data Defect
                              Reporting, and Documentation Need Improvement



                                                                                         Appendix I

            Detailed Objective, Scope, and Methodology

Our overall audit objective was to evaluate IRS efforts to ensure that the data in the CADE 2
database1 are accurate and complete. To accomplish our objective, we:
I.         Assessed the effectiveness of the CADE 2 Data Validation methodology.
              A. Reviewed the CADE 2 Database Implementation Data Validation Plan.
              B. Evaluated the data sampling methodology.
II.        Evaluated the implementation and effectiveness of automated compare tools in the
           CADE 2 data validation process.
              A. Reviewed documentation to determine if formal planning and resource
                 coordination occurred for the implementation of the automated compare tools in
                 the CADE 2 data validation process.
              B. Interviewed subject matter experts to determine how each automated compare
                 tool is used in the data validation process.
              C. Reviewed testing results generated from each tool to determine the effectiveness
                 of the tool in the data validation process.
III.       Evaluated the effectiveness of the CADE 2 Data Quality Team.
              A. Reviewed the CADE 2 Data Quality Team Charter.
              B. Determined what metrics (if any) currently exist for CADE 2 data validation
                 activities and how these metrics are being used to measure data quality.
              C. Evaluated KPIs developed by the team to ensure that they adequately measure
                 CADE 2 data quality.
              D. Evaluated the monitoring and reporting processes for KPIs.
              E.    Evaluated the effectiveness of the data defect management process.




1
    See Appendix V for a glossary of terms.
                                                                                             Page 24
                        Customer Account Data Engine 2 Database Validation
                        Is Progressing; However, Data Coverage, Data Defect
                          Reporting, and Documentation Need Improvement



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the Government Accountability
Office’s Standards for Internal Control in the Federal Government,2 the CADE 2 Database
Implementation Data Validation Plan, various meetings such as the CADE 2 Weekly Executive
Status Meetings and periodic data validation execution checkpoint meetings, design documents,
and data validation policies and procedures. We evaluated these controls by conducting
interviews with IRS management and staff; attending CADE 2 meetings; and reviewing and
evaluating documents such as the CADE 2 Data Quality Team Charter, the CADE 2 Database
Implementation Data Validation Plan and Data Validation Execution Plans, the FLID Compare
Tool design documents, and related FLID reports.




2
 Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Internal Control: Standards for Internal Control in the Federal Government (Nov. 1999).
                                                                                                 Page 25
                     Customer Account Data Engine 2 Database Validation
                     Is Progressing; However, Data Coverage, Data Defect
                       Reporting, and Documentation Need Improvement



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
Myron Gulley, Audit Manager
Tina Wong, Lead Auditor
Richard Borst, Senior Auditor
Arlene Feskanich, Information Technology Specialist
Erika D. Axelson, Ph.D., Statistician




                                                                                     Page 26
                    Customer Account Data Engine 2 Database Validation
                    Is Progressing; However, Data Coverage, Data Defect
                      Reporting, and Documentation Need Improvement



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Information Technology – Program
Management Office OS:CTO:EIT
Director, Enterprise Systems Testing OS:CTO:AD:EST
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                   Page 27
                        Customer Account Data Engine 2 Database Validation
                        Is Progressing; However, Data Coverage, Data Defect
                          Reporting, and Documentation Need Improvement



                                                                                          Appendix IV

                             Data Quality Scorecards
                      Figure 1: First Published Data Quality Scorecard
                             Snapshot as of December 16, 2013




Source: CADE 2 PMO. INIT – Initialization. FIT – Final Integration Testing. PSE – Production Support
Environment. SAT – Systems Acceptability Testing. RI – Referential Integrity. DU – Daily Update. TIN –
Taxpayer Identification Number. IBM – International Business Machines. IMFOL – Individual Master File Online.
SCOP – Standard Corporate Files On Line Overnight Processing. Vol – Volume. P1, P2, P3 – Priority 1, 2, or 3.
DAS – Data Access Service. IEAC – Identify and Extract Account Changes. INF – Informatica. SE-DE – Solutions
Engineering – Date Engineering. SDLC – Systems Development Life Cycle. Reqs – Requirements.
Dev – Development. DIT – Development, Integration, and Testing. Functl – Functional.

                                                                                                    Page 28
                        Customer Account Data Engine 2 Database Validation
                        Is Progressing; However, Data Coverage, Data Defect
                          Reporting, and Documentation Need Improvement



                              Figure 2: Data Quality Scorecard
                        for Production Cycle 9/10 as of April 14, 2014




Source: CADE 2 PMO. Pre-PROD – Pre-production. PROD DU – Production Daily Update.
P1, P2, P3 – Priority 1, 2, or 3. DB – Database. RI – Referential Integrity. B&C – Balance and Control. BOE –
Business Objects Enterprise. ACNT – Accounts. IRAF – Individual Retirement Account File. FERDI – Federal
Employee/Retiree Delinquency Initiative. SB – Small Business and Self-Employed. WI – Wage and Investment. MS
– Milestone. TIN – Taxpayer Identification Number.




                                                                                                    Page 29
                        Customer Account Data Engine 2 Database Validation
                        Is Progressing; However, Data Coverage, Data Defect
                          Reporting, and Documentation Need Improvement



                          Figure 3: Revised Data Quality Scorecard
                        for Production Cycle 9/10 as of April 22, 2014




Source: CADE 2 PMO. Pre-PROD – Pre-production. PROD DU – Production Daily Update.
P1, P2, P3 – Priority 1, 2, or 3. DB – Database. RI – Referential Integrity. B&C – Balance and Control. BOE –
Business Objects Enterprise. ACNT – Accounts. IRAF – Individual Retirement Account File. FERDI – Federal
Employee/Retiree Delinquency Initiative. SB – Small Business and Self-Employed. WI – Wage and Investment. MS
– Milestone. TIN – Taxpayer Identification Number.




                                                                                                    Page 30
                        Customer Account Data Engine 2 Database Validation
                        Is Progressing; However, Data Coverage, Data Defect
                          Reporting, and Documentation Need Improvement



                              Figure 4: Data Quality Scorecard
                        for Production Cycle 15/16 as of May 12, 2014




Source: CADE 2 PMO. Pre-PROD – Pre-production. P1, P2, P3 – Priority 1, 2, or 3. RI – Referential Integrity.
B&C – Balance and Control. PROD DU – Production Daily Update. TIN – Taxpayer Identification Number.




                                                                                                     Page 31
                         Customer Account Data Engine 2 Database Validation
                         Is Progressing; However, Data Coverage, Data Defect
                           Reporting, and Documentation Need Improvement



                                                                                     Appendix V

                                Glossary of Terms

Term                                Definition

Applications Development            The development organization for systems that manage taxpayer
                                    accounts from the initial filing of a tax return to interactions
                                    with the taxpayers and potential audit and collection activities.
                                    It also provides enterprise-wide administrative systems related to
                                    workforce support, human capital, financial, and facilities.

Business Event                      Consists of transactions and nontransactions. A transaction is a
                                    business event. An example of a transaction is the posting of a
                                    tax return to the taxpayer’s account. A nontransaction is usually
                                    generated by a transaction. An example of a nontransaction is
                                    the balance section of the taxpayer’s account.

Corporate Files Online              A collection of “read only” files extracted from the Master Files
                                    and maintained at the Enterprise Computing Centers in
                                    Memphis, Tennessee, and Martinsburg, West Virginia.

Customer Account Data Engine        The foundation for managing taxpayer accounts in the IRS
(CADE)                              modernization plan. It will consist of databases and related
                                    applications that will replace the existing IRS Master File
                                    processing systems and will include applications for daily
                                    posting, settlement, maintenance, refund processing, and issue
                                    detection for taxpayer tax account and return data.

Cycle                               A week, which is usually designated by a cycle number when
                                    referring to IRS processing activities.

Data Access Service                 A set of common capabilities that mediate relationships between
                                    applications throughout the enterprise and the external
                                    community. In general, the Data Access Service layer supports
                                    inter-application integration and sharing of data and functions
                                    that are maintained in separate application systems.

Database                            A collection of information that is organized so that it can easily
                                    be accessed, managed, and updated.

Data-Centric                        Refers to a focus on the specific data relevant to a given task.


                                                                                               Page 32
                           Customer Account Data Engine 2 Database Validation
                           Is Progressing; However, Data Coverage, Data Defect
                             Reporting, and Documentation Need Improvement



Term                                  Definition

Field Identifier (FLID)               An IRS file format that uses a numeric field (i.e., FLIDs) to
                                      identify a data field.

FLID Compare Tool (High               An automated tool that compares a high volume of taxpayer
Volume)                               accounts (the business requirement is to compare 1 million tax
                                      modules in 40 hours). The tool is intended to compare data in
                                      the IMF and CADE 2.

Filing Season                         The period from January through mid-April when most
                                      individual income tax returns are filed.

Final Integration Testing             A system test consisting of integrated end-to-end testing of
                                      mainline tax processing systems to verify that new releases of
                                      interrelated systems and hardware platforms can collectively
                                      support the IRS business functions allocated to them.

General Transcript Report             A report used by the Chief Financial Officer and Business
                                      Modernization Office during data validation to compare the
                                      corresponding data fields to ensure identical data.

Individual Master File                The IRS files that maintain transactions or records of individual
                                      tax accounts.

Individual Master File Online         This provides online access to individual taxpayer returns.

Knowledge, Incident/Problem,          An IRS application that maintains the complete inventory of
Service Asset Management              information technology and non–information technology assets,
                                      including computer hardware and software. It is also the
                                      reporting tool for problem management with all IRS developed
                                      applications, and shares information with the Enterprise Service
                                      Desk.

Milestone                             Provides for “go/no-go” decision points in a project and are
                                      sometimes associated with funding approval to proceed.

Priority 1 Defect Ticket              An incident ticket issue exhibiting the following characteristics:
                                      1) resulting in severe mission-critical work stoppage or any issue
                                      relating to safety or health (e.g., fire, electrical shock);
                                      2) affecting vital IRS customer commitments of national or
                                      area-wide scope; 3) affecting multiple internal or external
                                      customers and service to taxpayers; and 4) requiring immediate
                                      action.


                                                                                                Page 33
                           Customer Account Data Engine 2 Database Validation
                           Is Progressing; However, Data Coverage, Data Defect
                             Reporting, and Documentation Need Improvement



Term                                  Definition

Priority 2 Defect Ticket              An incident ticket issue with the potential to result in a work
                                      stoppage and/or to lead to severe mission-critical work stoppage
                                      if actions are not taken to resolve the incident.

Production Support Environment        A close replica of the IRS production environment used for
                                      various activities such as performance testing and data
                                      validation.

Requirement                           A statement of capability or condition that a system, subsystem,
                                      or system component must have or meet to satisfy a contract,
                                      standard, or specification.

Risk                                  A potential event that could have an unwanted impact on the
                                      cost, schedule, business, or technical performance of an
                                      information technology program, project, or organization.

Smart Sample                          A sample of modules selected as a result of the Smart sampling
                                      process, which is part of the CADE 2 data validation data
                                      sampling methodology. The Smart sampling process will ensure
                                      that infrequently seen data fields will be included in data
                                      validation testing. It will also provide a statistical basis for
                                      deciding how many instances of a particular data field or
                                      business event are to be sampled based on the probability of
                                      occurrence and target confidence level.

Structured Query Language             A standard interactive and programming language for getting
                                      information from and updating a database.

Systems Acceptability Testing         Testing conducted to verify a system satisfies application
                                      requirements.

Transformation Logic Path             This is the value of a data field based on the transformation rule
                                      conditions it meets.

Transformation Rule                   A rule to set the value in a field in the CADE 2 database. It may
                                      contain multiple conditions to decide the value of that field.
                                      Each condition defines a logic path for the transformation.




                                                                                                Page 34
      Customer Account Data Engine 2 Database Validation
      Is Progressing; However, Data Coverage, Data Defect
        Reporting, and Documentation Need Improvement



                                                  Appendix VI

Management’s Response to the Draft Report




                                                        Page 35
Customer Account Data Engine 2 Database Validation
Is Progressing; However, Data Coverage, Data Defect
  Reporting, and Documentation Need Improvement




                                                  Page 36
Customer Account Data Engine 2 Database Validation
Is Progressing; However, Data Coverage, Data Defect
  Reporting, and Documentation Need Improvement




                                                  Page 37
Customer Account Data Engine 2 Database Validation
Is Progressing; However, Data Coverage, Data Defect
  Reporting, and Documentation Need Improvement




                                                  Page 38
Customer Account Data Engine 2 Database Validation
Is Progressing; However, Data Coverage, Data Defect
  Reporting, and Documentation Need Improvement




                                                  Page 39
Customer Account Data Engine 2 Database Validation
Is Progressing; However, Data Coverage, Data Defect
  Reporting, and Documentation Need Improvement




                                                  Page 40
Customer Account Data Engine 2 Database Validation
Is Progressing; However, Data Coverage, Data Defect
  Reporting, and Documentation Need Improvement




                                                  Page 41
Customer Account Data Engine 2 Database Validation
Is Progressing; However, Data Coverage, Data Defect
  Reporting, and Documentation Need Improvement




                                                  Page 42
Customer Account Data Engine 2 Database Validation
Is Progressing; However, Data Coverage, Data Defect
  Reporting, and Documentation Need Improvement




                                                  Page 43
Customer Account Data Engine 2 Database Validation
Is Progressing; However, Data Coverage, Data Defect
  Reporting, and Documentation Need Improvement




                                                  Page 44
Customer Account Data Engine 2 Database Validation
Is Progressing; However, Data Coverage, Data Defect
  Reporting, and Documentation Need Improvement




                                                  Page 45
Customer Account Data Engine 2 Database Validation
Is Progressing; However, Data Coverage, Data Defect
  Reporting, and Documentation Need Improvement




                                                  Page 46
Customer Account Data Engine 2 Database Validation
Is Progressing; However, Data Coverage, Data Defect
  Reporting, and Documentation Need Improvement




                                                  Page 47
Customer Account Data Engine 2 Database Validation
Is Progressing; However, Data Coverage, Data Defect
  Reporting, and Documentation Need Improvement




                                                  Page 48
